               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




             City Delivery Efficiency –
               South Florida District


                       Audit Report




                                              March 4, 2014


Report Number DR-AR-14-004
                                                                               March 4, 2014

                                                               City Delivery Efficiency –
                                                                   South Florida District

                                                           Report Number DR-AR-14-004




BACKGROUND:                                    indicated their office workload priorities
The U.S. Postal Service Office of              limited their ability to monitor carriers
Inspector General (OIG) developed a            delivering mail. We identified the
series of interrelated city delivery           potential to eliminate 374,982 workhours
efficiency indicators to rank the relative     through improved supervision and other
risk of the 67 Postal Service districts for    efforts. This would increase overall
operational and service issues. The            efficiency at these delivery units and
South Florida District was ranked as the       allow the Postal Service to avoid about
second most “at-risk” district, as of fiscal   $15 million in costs annually.
year (FY) 2013, Quarter 3.
                                               We also identified assets at risk totaling
In FY 2013, South Florida District city        $165,508 at four delivery units due to
letter carriers delivered almost 2.8 billion   inadequate safeguards. Management
mailpieces on 4,096 routes to over             immediately initiated corrective action
2.5 million delivery points. City delivery     on these security matters.
office and street operational workhours
totaled 9,844,953. Our objective was to        WHAT THE OIG RECOMMENDED:
assess the efficiency of city delivery         We recommended the manager, South
operations in the South Florida District.      Florida District, instruct unit supervisors
                                               at the 83 delivery units to eliminate
WHAT THE OIG FOUND:                            374,982 workhours. We also
The South Florida District has                 recommended the manager reinforce
opportunities to enhance efficiency in         policies and procedures for supervising
city delivery operations. We found that        city delivery office and street operations
83 of 112 delivery units (74 percent)          at these delivery units and eliminate
used 374,982 more workhours than               inefficient practices. Further, we
projected. This occurred because               recommended the manager require
management did not always enforce              delivery supervisors to establish, review,
policies and procedures for supervising        and update integrated operating plans to
city delivery operations. Also, office and     ensure mail arrives timely and in route
street supervision was inconsistent at         order for easy retrieval by letter carriers.
the delivery units, allowing for some
inefficiency in operations. Officials          Link to review entire report.
March 4, 2014

MEMORANDUM FOR:             JEFFERY A. TAYLOR
                            MANAGER, SOUTH FLORIDA DISTRICT


                                E-Signed by Robert Batta
                              VERIFY authenticity with e-Sign




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Audit Report – City Delivery Efficiency – South Florida
                            District (Report Number DR-AR-14-004)

This report presents the results of our audit of the U.S. Postal Service's City Delivery
Efficiency in the South Florida District (Project Number 13XG043DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director, Delivery
and Post Office Operations, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
City Delivery Efficiency – South Florida District                                                                  DR-AR-14-004



                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

City Delivery Efficiency .................................................................................................... 1

   Supervision .................................................................................................................. 2

   Delivery Point Sequencing Handling............................................................................ 2

   Integrated Operating Plan............................................................................................ 4

   Inefficient Carrier Practices.......................................................................................... 4

Assets at Risk ................................................................................................................. 7

Recommendations .......................................................................................................... 7

Management’s Comments .............................................................................................. 7

Evaluation of Management’s Comments ......................................................................... 9

Appendix A: Additional Information ............................................................................... 10

   Background ............................................................................................................... 10

   Objective, Scope, and Methodology .......................................................................... 11

   Prior Audit Coverage ................................................................................................. 12

Appendix B: Monetary and Other Impacts..................................................................... 14

Appendix C: South Florida District – Top 14 Delivery Units With Highest Variances .... 15

Appendix D: Glossary – City Delivery Indicator Performance Information..................... 16

Appendix E: Management's Comments ........................................................................ 17
City Delivery Efficiency – South Florida District                                                       DR-AR-14-004




Introduction

This report presents the results of our self-initiated audit of city delivery efficiency in the
South Florida District (Project Number 13XG043DR000). The audit is in response to the
U.S. Postal Service Office of Inspector General's (OIG) City Delivery Efficiency Indicator
results used during fiscal year (FY) 2013, which ranked the South Florida District as the
second most “at-risk” district, as of FY 2013, Quarter (Q) 3. Our objective was to assess
the efficiency of city delivery operations in the South Florida District.

City delivery office and street operations cover every duty a letter carrier performs,
including sorting and delivering mail, completing paperwork, scanning mail, loading the
delivery vehicle, collecting mail along the route, and returning to the delivery unit to
unload the delivery vehicle. In FY 2013, South Florida District city letter carriers
delivered almost 2.8 billion mailpieces on 4,096 routes to over 2.5 million delivery
points. City delivery office and street operational workhours totaled 9,844,953 (see
Appendix A for additional information).

Conclusion

The South Florida District has opportunities to enhance efficiency in city delivery
operations. We found 83 of 112 delivery units (74 percent) used 374,982 more
workhours than projected. This occurred because management did not always enforce
policies and procedures for supervising city delivery operations. Also, office and street
supervision was inconsistent at the delivery units, allowing for some inefficiency in
operations. Officials indicated their office workload priorities limited their ability to
monitor carriers delivering mail. We identified the potential to eliminate
374,982 workhours through improved supervision and other efforts. This would increase
overall efficiency at these delivery units and avoid about $15 million in costs annually
(see Appendix B).

This audit also identified assets at risk totaling $165,508 due to inadequate safeguards
related to unsecured retail stamp inventory. Management immediately initiated
corrective action on these security matters.

City Delivery Efficiency

Our audit of the 14 delivery units with the highest variances1 determined that
management did not always reinforce Postal Service policies and procedures for city
1
 For office operations, when carriers on routes within a delivery unit actually use fewer office hours than projected, a
positive office variance occurs. Conversely, when carriers on routes within a delivery unit use more office hours than
projected, a negative office variance occurs. For street operations, when carries on routes within a delivery unit
actually use fewer street hours than projected, a negative street variance occurs. Conversely, when carriers on routes
within a delivery unit use more street hours than projected, a positive street variance occurs. The total net highest
variance is the difference between the total office and street variance.
                                                            1
                                                 Restricted Information
City Delivery Efficiency – South Florida District                                                        DR-AR-14-004




delivery operations at delivery units or eliminate inefficient and inconsistent practices
(see Appendix C). Management must ensure that:

   Delivery point sequence (DPS) 2 letters processed at plants arrive at delivery units
    staged in route order for easy retrieval by carriers (see Figure 1).

   Delivery unit and processing plant management establish, coordinate, and update
    integrated operating plans (IOPs)3 for units to receive the proper mail types at
    scheduled times so carriers do not have to wait for mail before departing for the
    street, potentially delaying their return to the office (see Figure 2).

   Carriers perform office and street duties using the most efficient habits to avoid
    incurring unnecessary additional time (see Figures 3 through 7).

Supervision

Supervisors did not always adequately oversee office and street operations. When
asked, several carriers said they only occasionally saw supervisors on the workroom
floor observing operations or on the street observing deliveries. Some supervisors said
they would like to observe operations more frequently and correct inefficient carrier
habits, but they are too busy with other office tasks.

Postal Service (PS) Form 3999, Inspection of Letter Carrier Route, is one of the tools
management uses to supervise street delivery. It documents a carrier’s ability to
perform his or her street route. Our review indicated that unit management rarely had
current copies of these forms. Forms were over 1 year old or not updated, based on the
last route adjustment, at nine of the 12 units (75 percent) we visited. A current PS Form
3999 allows a supervisor to know a carrier’s exact LOT, including the modes of delivery
used and where a carrier should be and at what time.

Delivery Point Sequencing Handling

At the delivery units we observed, some DPS letters processed by plants arrived late in
mail transport containers stacked on top of each other and not staged for easy retrieval
by the carriers. Usually, a clerk or supervisor reorganizes the DPS mail; however, some
carriers unloaded and sorted through the containers to identify the DPS mail for their
routes while on street time (see Figure 1).




2
  A process to sort barcoded letter mail at processing plants and delivery units into the carrier’s Line-Of-Travel (LOT)
so the carrier can deliver it without manual sorting before going to the street.
3
  The IOP covers mail arriving from the plant and identifies the mail products for each individual trip. The primary
purpose is to stabilize mail flow.


                                                            2
City Delivery Efficiency – South Florida District                                                 DR-AR-14-004




                      Figure 1. DPS Mail Received in Unshelved Containers




                      Source: OIG photograph taken October 22, 2013,               Post Office.

When carriers have to search for their DPS mail trays, their loading and departure are
delayed, thereby extending their street time. Postal Service policy 4 states that:

         . . . mail processing should stage DPS letters for transport in
         shelved or modified containers so individual trays do not have
         to be rehandled at the delivery unit.

In addition, policy 5 states that:

         DPS mail is not to be distributed to carriers, but staged near
         the exit for transport to vehicles so [it] can be taken directly to
         the street without further handling.




4
    Field Operations Standardization Development, Morning Guidebook, Section 2-6, 2007.
5
    Field Operations Standardization Development, Morning Guidebook, Section 4-5, 2007.


                                                         3
City Delivery Efficiency – South Florida District                                  DR-AR-14-004



Integrated Operating Plan

Mail did not always arrive on time, or in the proper mail mix. We observed several
instances in which the majority of flat mail arrived with DPS mail on the last dispatch of
the morning. Further, we observed parcels arriving with DPS mail or arriving later than
expected. We also observed managers at most of the units we visited inconsistently
used the IOP Discrepancy Report System to report mail arrival issues. Further, in
several instances, the delivery units had outdated IOPs. The Postal Service designed
the IOP system to help stabilize mail flow and it is critical to establishing appropriate
staffing and reporting times to eliminate carrier delays.

Delays can prolong carriers’ return times beyond 5 p.m., which may also contribute to
overtime hours. At the delivery units we observed, carriers’ start times began around
9 a.m. or later, which led to carriers returning after 5 p.m. (see Figure 2). Unit managers
have met with district officials, via teleconferences, on individual issues, but they have
not worked together on comprehensive solutions to late mail arrival, mail out of route
order, or other systemic problems.

                            Figure 2. Carrier Delivering Mail After 5 p.m.




                       Source: OIG photograph taken November 7, 2013,    Branch.

Inefficient Carrier Practices

The OIG also observed instances of carrier inefficiencies while on office duty. We traced
some inefficient loading habits to carriers waiting for mail or parcels and found
opportunities for carriers to save office time by preparing mail for delivery and save
street time by loading vehicles. We observed time-wasting practices, such as carriers
waiting in line for accountable mail, excessive talking on cell phones during mail sorting,
and visits to personal vehicles (see Figures 3 and 4).




                                                     4
City Delivery Efficiency – South Florida District                                                       DR-AR-14-004




     Figure 3. Carriers Waiting in Line for
        Accountable Mail During Office                                    Figure 4. Carrier Talking on Personal
                  Operations                                              Cell Phone During Office Operations




                          Source: OIG photographs taken November 6, 2013,                       Annex and
                                     October 24, 2013,             Branch.

The OIG also observed instances of carriers being inefficient while on street duty by, for
example, going to their personal vehicles and not using satchels (see Figures 5 and 6).

When carriers do not use their satchels to deliver mail, they make multiple trips to and
from their vehicles and incur additional street time. Postal Service procedures require
carriers delivering mail on park-and-loop routes 6 to use their vehicles as movable relay
boxes from which they withdraw a substantial amount of mail that they place into their
satchels before beginning their routes. Carriers must carry the appropriate amount of
mail — up to 35 pounds — to complete each assigned relay without additional trips to
the vehicle or relay box. 7




6
  A delivery method that is basically the same as the one that uses foot routes with relays. The carrier uses the
vehicle as a movable relay box from which he or she withdraws a substantial amount of mail, placing it into his or her
satchel. The carrier then delivers to one side of the street up to a certain location and then the other side (looping)
back to the vehicle for additional relays, parcel post delivery, and or other park points.
7
  PS Handbook M-41, City Delivery Carriers Duties and Responsibilities, Section 273, March 1998.


                                                           5
City Delivery Efficiency – South Florida District                                                            DR-AR-14-004



        Figure 5. Carrier at Personal Vehicle                                  Figure 6. Carriers Without
            During Street Time Loading                                                Satchels




                Source: OIG photograph taken October 22, 2013,                Branch and                Annex.

The OIG witnessed other instances of carrier inefficiencies while on street duty. For
example, we observed carriers using multiple delivery modes on one street including
walking, dismounting, and delivering curbside (see Figure 7). One carrier who
performed multiple modes of delivery on the route told us that carriers could save at
least 1 hour of street time daily by using one mode of delivery, particularly curbside. 8

                                Figure 7. Multiple Delivery Modes on One Street




                              Source: OIG photograph taken October 24, 2013,                      Station.



Overall efficiency at South Florida District delivery units would increase by adjusting
operations and improving supervision during carrier street delivery. We estimate this


8
    The OIG plans a future review of carriers' use of multiple modes of delivery on one street.


                                                             6
City Delivery Efficiency – South Florida District                                DR-AR-14-004



would allow the Postal Service to avoid costs of $15 million annually by reducing
374,982 workhours (see Appendix B).

Assets at Risk

Employees did not properly secure and lock stamp stock inventory valued at $165,508
at four of the 12 locations we visited. Physical access controls reduce the security risk
to Postal Service employees and safeguarding controls reduces the potential for loss or
misappropriation of assets. We brought these issues to the attention of station
managers who took immediate action to correct the situation. We are not making
recommendations on this issue.

Recommendations

We recommend the manager, South Florida District, instruct unit supervisors at delivery
units to:

1. Implement efforts to eliminate 374,982 workhours at the delivery units cited.

2. Reinforce and ensure adherence to Postal Service policies and procedures for
   supervising city delivery operations at delivery units.

3. Eliminate inefficient carrier practices, such as carriers waiting in line for accountable
   mail, excessive talking on cell phones during mail sorting, and visits to personal
   vehicles.

4. Increase mail arrival efficiency by preparing integrated operating plans with facility
   processing managers.

5. Use the Integrated Operating Plan Discrepancy Report System to monitor
   compliance and identify and correct systemic issues.

6. Ensure delivery point sequence mail arrives timely and in route order for easy
   retrieval by carriers.

Management’s Comments

Management agreed with the findings, recommendations, and monetary impact.
Management reviewed a discussion draft of this report and submitted comments. We
incorporated management’s suggested changes into this final report.

Regarding recommendation 1, management agreed to implement efforts to eliminate
374,982 workhours at the delivery units cited in the report. Officials indicated they have
implemented several initiatives to reduce workhours, including having daily meetings to
discuss office and street performance and increasing their focus on carrier activities.
Daily meetings could result in supervisors meeting with employees to schedule an office
count or discuss performance, as well as conducting street inspections/observations.


                                                    7
City Delivery Efficiency – South Florida District                                DR-AR-14-004



Officials also stated their oversight includes having daily morning district level
teleconferences, reviewing budget/production performance, reviewing offices that do not
follow their operating plan, and taking corrective action to improve performance.
Officials also said they implemented five levels of oversight for each delivery unit,
including level one for weekly monitoring, level two for daily operational monitoring, level
three for site visits and monitoring, level four for district-level functional team review,
and level five for intervention/support team action. Officials indicated they have
eliminated 132,385 workhours as of week 20 and still plan to capture the remaining
hours. The target implementation date is September 30, 2014.

Regarding recommendation 2, management agreed to reinforce and ensure adherence
to Postal Service policies and procedures for supervising city delivery operations at
delivery units. Officials said their implementation of oversight levels at each delivery unit
includes using a support team to coach and mentor current supervisors to reinforce
policies and procedures and to assist with any difficulties they are having in performing
their duties efficiently. Officials stated they have about 50 vacant supervisor positions
and will post them to Executive and Administrative Schedule (EAS) personnel first and
then to craft employees if they remain unfilled. Filling the vacancies will create a more
stable and consistent supervisory staff to reinforce policies and procedures. The target
implementation date is June 30, 2014.

Regarding recommendation 3, management agreed to eliminate inefficient carrier
practices, such as carriers waiting in line for accountable mail, excessive talking on cell
phones during mail sorting, and visits to personal vehicles. Management said it rewrote
and distributed the policy on cell phone use and instructed offices to give service talks
on time-wasting practices. Officials stated they will continue following up on their
observations. The target implementation date is March 15, 2014.

Regarding recommendation 4, management agreed to increase mail arrival efficiency
by preparing IOPs with facility processing managers. Officials indicated they plan to
work with their processing plant partners to update the IOP agreements, especially after
closing two facilities. The target implementation date is September 1, 2014.

Regarding recommendation 5, management agreed to use the IOP Discrepancy Report
System to monitor compliance and identify and correct systemic issues. Officials stated
that, although they are not using the system, they are identifying IOP discrepancies
during daily morning teleconferences with processing plant partners. Management
further stated that its Operations Support and In-Plant Support departments will review
the feasibility of using the system and make recommendations. The target
implementation date is April 1, 2014.

Regarding recommendation 6, management agreed to ensure delivery point sequence
mail arrives timely and in route order for easy retrieval by carriers. Management said
Customer Service personnel work each day with their plant partners and Postal Service
management is addressing this subject daily during the morning teleconferences.
Officials further stated that unit managers are going into their processing plants, locating



                                                    8
City Delivery Efficiency – South Florida District                              DR-AR-14-004



the mail processing machines, and establishing relationships with staff members that
include discussing the impact of noted mail arrival problems at their delivery units. The
target implementation date is April 1, 2014.

See Appendix E for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

The OIG considers all recommendations significant, and therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                    9
 City Delivery Efficiency – South Florida District                                                DR-AR-14-004



                                    Appendix A: Additional Information

 Background

 City delivery office and street operations cover every duty a letter carrier performs,
 including sorting and delivering mail, completing paperwork, scanning mail, loading the
 delivery vehicle, collecting mail along the route, and returning to the delivery unit to
 unload the delivery vehicle. In FY 2013, South Florida District city letter carriers
 delivered 2,773,467,068 mailpieces on 4,096 routes to 2,591,031 delivery points. City
 delivery office and street operations workhours totaled 9,844,953.

 The OIG developed a series of interrelated city delivery efficiency indicators at the
 district level to rank the 67 districts from the most to the least “at risk” for operational
 and service issues. The indicators include the following performance information (see
 Appendix D):

    Overtime.
    Delayed mail.
    DPS percentage.
    Carriers returning after 5 p.m.
    Staffing ratio.
    Managed service point scans.
    Overnight ranking.
    Office Efficiency Indicator (OEI).
    Street Efficiency Indicator (SEI).

 As shown in Table 1, the South Florida District consistently ranked in the top five most
 “at-risk” districts as of FY 2013, Q3.

  Table 1. City Delivery Efficiency Indicator Top Five Most At-Risk District Ranking
                               FY 2012, Q3 – FY 2013, Q3
                 FY 2012,              FY 2012,                FY 2013,          FY 2013,         FY 2013,
 Ranking             Q3                    Q4                     Q1                 Q2               Q3
   67          Caribbean            South Florida         South Florida        South Florida   Houston
   66          Houston              Houston               Colorado/Wyoming     Gateway         South Florida
   65          Louisiana            Hawkeye               Caribbean            Houston         Dallas
   64          South Florida        Caribbean             Northern Virginia    Dallas          Central PA
   63          Dallas               Dallas                Connecticut Valley   Los Angeles     Northern Ohio
Source: OIG city delivery efficiency indicator results.




                                                             10
City Delivery Efficiency – South Florida District                                DR-AR-14-004



Objective, Scope, and Methodology

Our objective was to assess the efficiency of delivery operations in the South Florida
District. To accomplish our objective, we:

    Reviewed documentation and applicable policies and procedures related to city
     delivery efficiency in office and street operations to identify opportunities to improve
     operational efficiency.

    Reviewed city delivery efficiency indicators for FY 2012, Q3 through FY 2013, Q3
     and identified inefficiencies in the South Florida District.

    Obtained and analyzed city delivery office and street workhour variances for
     FY 2012, Q3 through FY 2013, Q3 to determine the total variance between
     projected office workhours and street workhours that exceeded actual workhours.

    Relied on delivery unit data from the Enterprise Data Warehouse (EDW), Delivery
     Operations Information System (DOIS), and managed service points from FY 2012,
     Q3 through FY 2013, Q3 to determine potential cost impact.

    Judgmentally selected and observed 12 delivery units. Our selection considered the
     units’ high positive variances.

    Interviewed South Florida District and selected unit officials to discuss city delivery
     efficiency in office and street operations.

We conducted this performance audit from September 2013 through March 2014, in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on January 23, 2014, and included its
comments where appropriate.

We relied on data obtained from Postal Service database systems, such as DOIS and
EDW. We did not directly audit the systems, but performed a limited data integrity
review to support our data reliance. We assessed the reliability of systems’ data by
reviewing existing information about the data and the systems that produced it, and by
interviewing agency officials knowledgeable about the data. We determined the data
were sufficiently reliable for the purposes of this report.




                                                    11
City Delivery Efficiency – South Florida District                              DR-AR-14-004




Prior Audit Coverage


                                  Report           Final Report      Monetary Impact
        Report Title             Number                Date             (in millions)
 City Delivery – Street       DR-AR-13-004          5/24/2013           $28,080,953
 Efficiency Southern,
 Pacific, and Western
 Areas
 Report Results:
 Our report determined the Bay-Valley, Dakotas, Houston, Oklahoma, and Portland
 districts could use 7 fewer minutes of street time per day on each route, or 340,499
 workhours annually, for enhanced delivery efficiency. The Postal Service did not
 always enforce Postal Service policy and procedures and street supervision was
 inconsistent at the delivery units. Reducing 340,499 workhours and improving
 supervision could improve overall efficiency. Management agreed with our findings,
 recommendations, and monetary impact.

 City Delivery               DR-MA-12-003        9/28/2012              $1,900,064
 Operations – Lancaster
 Carrier Annex
 Report Results:
 Our report determined the Lancaster Carrier Annex could improve city delivery
 efficiency by reducing 12,339 workhours annually. We determined it did not always
 enforce policy and procedures or use Global Positioning System equipment to track
 route time and had a low supervisor-to-employee ratio at delivery units. Management
 agreed with our findings, recommendations, and monetary impact.

 City Delivery                 DR-MA-12-004        9/27/2012              $1,228,120
 Operations – Brick
 Main Post Office
 Report Results:
 Our report determined the Brick Main Post Office had opportunities to enhance city
 letter carrier efficiency and reduce 7,744 workhours annually. We determined it did
 not always reinforce Postal Service policies and procedures for supervising city
 delivery operations and ensure carriers used efficient office and street practices. Also,
 management did not have automated vehicle tracking technology to assist in more
 effective street supervision. Management agreed, or agreed in principle, with the
 findings, recommendations, and monetary impact.

 City Delivery – Street             DR-AR-12-003         8/16/2012       $9,138,265
 Efficiency Capital
 District



                                                    12
City Delivery Efficiency – South Florida District                              DR-AR-14-004




                                        Report           Final Report   Monetary Impact
        Report Title                    Number               Date         (in millions)
 Report Results:
 Our report determined the Capital District has opportunities to enhance street delivery
 efficiency. We determined the Capital District could use about 12 fewer minutes of
 street time per day on each carrier route, or 110,740 workhours, and save about $4.5
 million annually. Our review of selected delivery units determined that management
 did not always reinforce Postal Service policies and procedures for supervising city
 delivery street operations at delivery units, which allowed for some inefficient delivery
 practices. Management agreed with our findings, recommendations, and monetary
 impact.

 City Delivery – Street        DR-AR-12-004          8/16/2012             $8,874,598
 Efficiency Louisiana
 District
 Report Results:
 Our report determined the Louisiana District has opportunities to enhance street
 delivery efficiency. We determined the Louisiana District could use about 12 fewer
 minutes of street time per day on each carrier route, or 107,550 workhours, and save
 about $4.4 million annually. Our review of selected delivery units determined that
 management did not always reinforce Postal Service policies and procedures for
 supervising city delivery street operations at delivery units, which allowed for some
 inefficient delivery practices. Management agreed with our findings,
 recommendations, and monetary impact.

 City Delivery – Street       DR-AR-12-001            6/5/2012             $6,840,240
 Efficiency San Diego
 District
 Report Results:
 Our report determined the San Diego District has opportunities to enhance street
 delivery efficiency. Management could save about 83,930 carrier street workhours
 through more efficient practices. Our review of selected delivery units determined
 management did not always reinforce Postal Service policies and procedures for
 supervising city delivery street operations in delivery units, which allowed for some
 inefficient delivery practices. Management agreed with our findings,
 recommendations, and monetary impact.




                                                    13
City Delivery Efficiency – South Florida District                                                      DR-AR-14-004




                            Appendix B: Monetary and Other Impacts

                                               Monetary Impact

          Recommendations                        Impact Category                           Amount
              1 and 2                         Funds Put to Better Use 9                  $30,587,250

We calculated funds put to better use for reducing city carrier workhours in the South
Florida District.

We calculated the "net" total office and street variance for FY 2012, Q3 through
FY 2013, Q3 and used the sum to identify offices with over 15 routes with a positive
office variance. We calculated the total number of routes and variance hours associated
with those routes and multiplied those hours by the projected overtime rate for
FYs 2014 and 2015.

We calculated an estimated total savings of over 374,982 workhours (over 2 years). To
reach this figure, we divided the number of minutes by the number of routes in the
South Florida District and divided that number by 303 annual delivery days.

We used the 374,982 total workhours of positive variance to calculate monetary impact.
We used the carrier overtime rate of $40.40 and multiplied it by total workhour variance
for an FY 2014 projection of $15,149,257. For FY 2015, we used an overtime rate of
$41.17, using an escalation factor of 1.9 percent, which results in $15,437,993. We
combined these numbers for a 2-year projection totaling $30,587,250.

                                                 Other Impact

                                     Impact Category                      Amount
                                      Assets at Risk 10                   $165,508




9
 Funds that could be used more efficiently by implementing recommended actions.
10
  Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss
because of inadequate internal controls.


                                                        14
City Delivery Efficiency – South Florida District                                  DR-AR-14-004




       Appendix C: South Florida District – Top 14 Delivery Units With Highest
                                     Variances


                                                     Office         Street      Total Net
   Rank              Delivery Unit                  Variance       Variance     Variance
    1        Margate Branch                              21,144       (1,985)        19,159
    2        Boca Raton Main Office                       9,221         4,770        13,992
    3        Tropical Reef Station                       13,835         (209)        13,625
    4        Snapper Creek Branch                        15,063       (1,721)        13,342
    5        North Miami Branch                          10,881         2,363        13,244
    6        Hollywood, Main Office                       6,694         3,944        10,637
    7        Ft. Lauderdale Florida
             Main Office Carrier Annex                     8,810        1,647       10,457
     8       Little River Station                          5,145        5,120       10,266
     9       Delray Beach Main Office                     14,031      (3,872)       10,160
     10      Sunrise Branch                                6,685        3,428       10,114
     11      Carol City Branch                             8,315        1,268        9,584
     12      Boca West Annex                               5,783        3,765        9,548
     13      Quail Heights Branch                         10,575      (1,241)        9,334
     14      Norland Branch                                8,858           27        8,884
             Total                                       145,041      17,304       162,346
  Source: EDW as of FY 2013, Q3.




                                                    15
City Delivery Efficiency – South Florida District                               DR-AR-14-004




      Appendix D: Glossary – City Delivery Indicator Performance Information


1. Overtime. The overtime used by city delivery in relation to total city delivery
   workhours.

2. Delayed mail. Mail received at the delivery unit that is delayed (remains) at the unit
   after carriers have left to begin street delivery.

3. DPS percentage. The percentage of letter mail delivered to a carrier unit in walk
   sequence.

4. Carriers returning after 5 p.m. The percentage of city carriers who return to the
   station from delivering mail after 5 p.m.

5. Staffing ratio. Ratio showing that routes have adequate coverage to ensure that
   delivery service occurs. A ratio lower than 1.2 indicates that routes and all delivery
   points are not adequately covered.

6. Managed service point scans. Percentage showing street performance for scans
   during street delivery.

7. Overnight ranking. Measures the percentage of First-Class Mail delivered within the
   overnight standard.

8. OEI. The percentage is the cumulative possible deliveries and total number of actual
   office hours used to case mail, perform other carrier office functions, and routers.

9. SEI. The percentage is the quotient of total possible deliveries for the route over the
   week in relation to the total street time for the route for the week.




                                                    16
City Delivery Efficiency – South Florida District                 DR-AR-14-004



                              Appendix E: Management's Comments




                                                    17
City Delivery Efficiency – South Florida District        DR-AR-14-004




                                                    18
City Delivery Efficiency – South Florida District        DR-AR-14-004




                                                    19
City Delivery Efficiency – South Florida District        DR-AR-14-004




                                                    20
City Delivery Efficiency – South Florida District        DR-AR-14-004




                                                    21
